            OFFICE OF
            INSPECTOR
            GENERAL
            UNITED STATES POSTAL SERVICE
                                            




            Controls Over the
        Check Acceptance Process

            Management Advisory




                                       September 6, 2012


Report Number FI-MA-12-016
                                                                   September 6, 2012

                                                           Controls Over the Check
                                                              Acceptance Process

                                                       Report Number FI-MA-12-016



BACKGROUND:
U.S. Postal Service retail associates      implementing) measures such as
may accept a variety of checks for         establishing an electronic bad check list
customer transactions when presented       (with names of check writers), reviewing
with valid photo identification. While     check acceptances from the previous
paying by check is convenient for some     day’s activity, and investigating frequent
customers, businesses that accept them     bad check customers, we found the two
take a risk of not receiving payment for   primary systems for tracking checks
goods and services. Occasionally, the      could be enhanced to prevent or detect
account on which the check is drawn        bad checks. In addition, Postal Service
has nonsufficient funds available,         personnel provided little oversight to unit
resulting in a delay or loss of funds      supervisors’ override of system-
transferred to Postal Service accounts.    identified bad checks. Further, contract
In addition, some customers attempt to     postal units (CPU) do not receive
defraud the Postal Service by making       Postal Service-developed bad check
purchases with fraudulent checks and       lists. As a result, over $760,000 in bad
counterfeit bank account numbers.          checks accepted at CPUs nationwide
                                           identified in calendar years 2010 and
Our objective was to determine the         2011 remain uncollected. By
effectiveness of controls over the check   implementing additional controls, the
acceptance process. We reviewed the        Postal Service could more effectively
check acceptance process, returned         detect and reduce bad checks.
check management procedures, and
check fraud analyses and initiatives. We   WHAT THE OIG RECOMMENDED:
conducted this audit as a follow up to     We recommended modifying the
our prior audit on the effectiveness of    Point-of-Sale (POS) and Returned
Postal Service policies and procedures     Check Management systems and Postal
for collecting and preventing bad checks   Service Form 1412, Daily Financial
(Bad Check Prevention and Collection       Report, to detect bad check customers.
Report Number FI-AR-12-002, dated          Additionally, we recommended directing
January 10, 2012).                         district management to instruct unit
                                           management to provide clear guidance
WHAT THE OIG FOUND:                        to retail associates on the POS entry
The Postal Service has opportunities to    and check acceptance process, and
reduce bad check acceptance and deter      requiring host post offices to provide the
attempts at defrauding the Postal          most recent bad check lists to CPUs.
Service. Although the Postal Service
has implemented (or is in the process of   Link to review the entire report
September 6, 2012

MEMORANDUM FOR:            KELLY M. SIGMON
                           VICE PRESIDENT, CHANNEL ACCESS

                           DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND
                           POST OFFICE OPERATIONS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Management Advisory – Controls Over the Check
                           Acceptance Process (Report Number FI-MA-12-016)

This report presents the results of our audit of controls over the check acceptance
process (Project Number 12BG021FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Policy Formulation and Financial Controls, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Deborah Giannoni-Jackson
    Joseph Corbett
    Nagisa M. Manabe
    Corporate Audit and Response Management
Controls Over the Check Acceptance Process                                                                          FI-MA-12-016



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1 

Conclusion ...................................................................................................................... 2 

Controls Over the Check Acceptance Process ............................................................... 2 

   Postal Service Actions ................................................................................................. 2 

   Reduce Fraudulent Checks Using the Point-of-Service System .................................. 3 

   Reduce Fraudulent Checks Using Returned Check Management System.................. 4 

   Comparison of the Point-of Service Bad Check Override Report to Returned Check
   Management System Data .......................................................................................... 5

   Bad Check Lists at Contract Postal Units .................................................................... 6 

Recommendations .......................................................................................................... 9 

Management’s Comments .............................................................................................. 9 

Evaluation of Management Comments ......................................................................... 10 

Appendix A: Additional Information ............................................................................... 13 

   Background ............................................................................................................... 13 

   Objective, Scope, and Methodology .......................................................................... 14 

   Prior Audit Coverage ................................................................................................. 15 

Appendix B: Monetary Impact ....................................................................................... 16 

Appendix C: Check Acceptance Data ........................................................................... 17 

Appendix D: Management’s Comments ........................................................................ 23 
Controls Over the Check Acceptance Process                                                                    FI-MA-12-016




Introduction

This report presents the results of our audit of the check acceptance process (Project
Number 12BG021FI000). Our objective was to determine the effectiveness of controls
over the check acceptance process. This self-initiated audit addresses financial risk and
is a follow up to our prior audit on the effectiveness of U.S. Postal Service policies and
procedures for collecting and preventing bad checks. 1 See Appendix A for additional
information about this audit.

Postal Service retail associates may accept many forms of non-cash payments, such as
credit/debit cards and checks for customer transactions when presented with the proper
photo identification. While paying by check is convenient for some customers,
businesses that accept checks risk not receiving payment. For example:

   During fiscal year (FY) 2010, the Postal Service accepted       bad checks
    totaling             , of which $8,005,123 remains uncollected.

   During 2011 the Postal Service accepted                               bad checks totaling                           ,
    of which           remains uncollected.
          
   Between October 2011 and April 2012, the Postal Service accepted                                            bad
    checks totaling         , of which            remains uncollected.

Occasionally, the account on which the customer’s check is drawn has nonsufficient
funds available, resulting in a delay or loss of funds transferred to Postal Service
accounts. In addition, some customers attempt to defraud the Postal Service by making
purchases with fraudulent checks and counterfeit bank account numbers.

Both the Account Reconciliation Branch at the Eagan, MN Accounting Service Center
(ASC) and the U.S. Postal Inspection Service have executed measures to help detect
and reduce bad check activity. Accounting Services established a bad check list in the
Point-of-Sale (POS) system, 2 which is an electronic version of the paper bad check list. 3
The Inspection Service performs a manual velocity checking process, 4 which analyzes
the previous day’s POS activity for multiple occurrences of the same bank routing
number and purchases of First-Class Mail® stamps at three or more postal retail units
(PRU). 5 In addition, the Inspection Service initiated investigations of frequent bad check
customers using information from the Eagan ASC. The Postal Service’s engineering
group is developing a process that will focus on implementing an automated velocity
1
  Bad Check Prevention and Collection (Report Number FI-AR-12-002, dated January 10, 2012).
2
  POS automates retail transactions, enhances customers' experience, and captures transactional data related to
products and services sold.
3
  Accounting Services personnel manage accounting processes and procedures in three locations (Eagan, MN;
St. Louis, MO; and San Mateo, CA), to include generating a national bad check list, which contains information such
as customer name, for checks returned unpaid from Postal Service bank accounts.
4
  A count or limit applied to a particular activity in a given time period.
5
  A PRU is any post office, main office, station, branch, or finance unit that electronically transmits daily financial data.
                                                                 1
Controls Over the Check Acceptance Process                                                          FI-MA-12-016



checking capability into the POS system. These measures combined have been
effective in detecting and reducing the number of bad checks, as evidenced by an
average 12 percent decline between FYs 2011 and 2012.

Conclusion

Overall, we determined that controls over the check acceptance process were effective.
However, we identified opportunities to reduce bad check acceptance and deter
attempts at defrauding the Postal Service. Although both the Eagan ASC and the
Inspection Service have implemented, or are in the process of implementing, measures
to help detect and reduce bad check activity, we found the POS system and Returned
Check Management System (RCMS) 6 could be improved to prevent or detect bad
checks. In addition, Postal Service personnel provided little oversight to unit
supervisors’ override of system-identified bad checks. Further, contract postal units
(CPUs) do not receive Postal Service-developed bad check lists. By strengthening
these controls, Postal Service personnel could more effectively detect and reduce bad
checks at PRUs.

Controls Over the Check Acceptance Process

The Postal Service has ongoing and planned initiatives to address issues related to the
check acceptance process. Although efforts have been successful in the continuing
decline of bad checks, we identified areas related to the POS system and RCMS, the
POS bad check override report and RCMS data process, and the bad check lists at
CPUs where controls could be improved. By implementing additional controls,
management could significantly reduce the number of bad checks it accepts and the
expense associated with the checks.

See Appendix C, Table 4, for more detailed information on the number and amount of
bad checks accepted by each district between FY 2010 and Quarter (Q) 2, FY 2012.

Postal Service Actions

Management is receptive to reducing bad check acceptance and the time it takes a
check to be placed on the bad check list. For example, the Revenue Fraud Analytics
group of the Inspection Service has a Lean Six Sigma 7 initiative in place to improve
detection and reduction of bad checks.




6
  The RCMS is a web-based system designed to control the lifecycle of returned checks and the distribution of
associated collections letters and reports.
7
  Lean management is focused on reducing waste and improving process flows, while Six Sigma methodologies
concentrate on reducing variation or defects and improving quality.


                                                        2
Controls Over the Check Acceptance Process                                                               FI-MA-12-016




                                            This process decreases from about 4 weeks
to 3 days the time it takes for a check to be placed on the bad check list. According to
the Inspection Service’s Lean Six Sigma group's black belt member, 9 this initiative
started in October 2011 and a pilot was successfully deployed on June 1, 2012.

The Postal Service’s engineering group also has a Lean Six Sigma initiative in process,
focusing on implementing an automated velocity checking capability process into the
POS system. The system will automatically detect multiple checks being passed from
the same account per day at different PRUs. The detection will flag the account and
prompt the retail associate not to accept future checks from any customer attempting to
use the same account. As of the date of this report, no implementation date had been
determined.

Reduce Fraudulent Checks Using the Point-of-Service System

Improvements to the POS system would provide additional controls to prevent or detect
bad checks. For example:
                                                                                10
   Retail associates sometimes accept bad checks by not manually e
                                        into the POS system. During a test of bad check
    data, we observed a lead retail associate enter a nine-digit checking account
    number instead of the entire 10 digits from a customer’s check that we judgmentally
    selected from the RCMS data. The POS system accepted the number and allowed
    the retail associate to continue the transaction. According to an Eagan ASC senior
    systems accountant, check numbers need to be entered into the POS system using
    the full 10-digit account number, including leading zeroes, to be recognized as a bad
    check. This is the method the Eagan ASC account specialists use to enter account
    numbers into the RCMS for inclusion on the POS bad check list. We believe the
    Postal Service should implement a POS enhancement to halt check acceptance until
    the retail associate enters a 10-digit account number so that all account numbers
    entered into the POS system correspond with RCMS data. This would enable the
    Postal Service to detect more fraudulent checks. Additionally, by reiterating the
    Postal Service’s check acceptance policy and training retail associates on the new
    10-digit POS enhancement, retail associates would potentially allow fewer bad
    checks to bypass the POS system.
8
  RDM is used to retrieve data from the Enterprise Data Warehouse (EDW), which provides a single source of
accurate data across organizations to a wide variety of users. The vision of the EDW is to provide a single repository
for managing all of the Postal Service's data assets. A data warehouse is a collection of data from many sources,
which is stored in a single place for reporting and analysis.
9
  A black belt is a person who has been thoroughly trained in Lean Six Sigma methodology and advanced statistical
tools.
10
   The POS system prompts the retail associate to place the check face down into the printer to scan and obtain the
account and routing number from the check’s magnetic ink character recognition line. As an alternative, the retail
associate may manually enter the account, routing, and check numbers into the system.


                                                           3
Controls Over the Check Acceptance Process                                                           FI-MA-12-016




    Retail associates did not have the capability of entering the first and last name of a
     customer or the payer’s name printed on the check. According to Postal Service
     policy, the only information the POS system requires for check acceptance is the
     account number and bank routing number. 11



                               By including a POS enhancement to allow name
     information to be entered, coupled with the established procedures of entering the
     account number and bank routing number, retail associates would potentially detect
     additional fraudulent checks.

    PRU supervisors did not have the capability of reviewing Postal Service
     (PS) Form 1412, Daily Financial Report, 12 for bad check activity during their
     end-of-day closeout process. The POS system does not currently generate an
     end-of-day report showing bad check information. All PRUs, regardless of size or
     revenue, must report their financial activity to Accounting Services electronically at
     the close of each business day. 13 By adding a report to the unit PS Form 1412
     containing the number of bad checks attempted to be cashed for that day along with
     their respective account numbers, bank routing numbers and customer names, the
     reviewing supervisor would receive an up-to-date view of potentially fraudulent
     names associated with bad check information.

Reduce Fraudulent Checks Using Returned Check Management System

Improvements to the RCMS would provide additional controls to prevent or detect bad
checks. For example,




During our observation of the daily data entry process on April 11, 2012, we saw an
account specialist enter the routing and account numbers for a known bad check
customer and the system returned eight previous entries matching that information.
When we prompted the account specialist to search for entries on that customer’s

11
   NCR POS One Procedures Guide, Section 2.2, page 12, January 2012.
12
   PS Form 1412 provides supervisors with an opportunity and uniform method to review and report financial
transactions.
13
   Handbook F-101, Field Accounting Procedures, Section 5-1, page 31, May 2012.


                                                        4
Controls Over the Check Acceptance Process                                                              FI-MA-12-016



name, the system returned an additional nine entries. After searching on the name, not
only did the entries with the same routing and account numbers appear, but the search
also retrieved entries containing different routing and account numbers for the same
customer. The supervisor stated that the manual process of searching for a customer’s
name is the only option for obtaining historical activity.

In addition,




                                                              there would be an
increased chance of accessing additional bad check history to better detect and analyze
potential fraudulent activity. In addition,




Comparison of the Point-of Service Bad Check Override Report to Returned Check
Management System Data




                    The override report lists all the check transactions that a PRU
supervisor has overridden to accept a check, and the RCMS data represents bad
checks from retail locations.

We compared the POS override data with RCMS transaction data for the period
October 2009 through April 24, 2012, and identified 57 overridden checks (that
ultimately became bad checks) totaling $100,654. During this time, there were a total of
3,085 check override transactions totaling $9 million. This comparison also allowed the

14
   We referred this information to the U.S. Postal Service Office of Inspector General (OIG) Office of Investigations.
15
   Handbook F-101, Section 2-1.2.1b, page 5, May 2012.
16
   Supervisors have the option to override the POS system to accept a check if a bank account and routing number is
listed in the POS bad check electronic file.


                                                          5
Controls Over the Check Acceptance Process                                                           FI-MA-12-016



OIG to identify the district, unit, and supervisor with the highest number of bad check
override transactions.

For example:

    Of the 67 districts analyzed,
                                                                                                     .

    Of 1,037 units analyzed,


    Of 1,242 supervisors analyzed,
                                                                                                     .

See Appendix C, Table 5, for more detailed information on override transactions by
district and number of units and supervisors.

Accounting Services is responsible for significant coordination and communication with
the field units. 17 The senior systems accountant stated the comparison process was not
something the Account Reconciliation Branch was required to perform; however, she
did find value in the process and it would be something they would consider. By
comparing the supervisor overrides to RCMS data, the account specialists could identify
a correlation between a particular district, unit, or supervisor and a high number or dollar
amount of bad check transactions being overridden, which may indicate a need for
training or possible fraud. During our audit, the senior systems accountant took
corrective action by developing procedures on how to best use the bad check override
report and establishing training for the account specialists. We will make no
recommendation at this time.

Bad Check Lists at Contract Postal Units

The host post offices 18 for CPUs did not distribute the bad check list to their respective
CPUs. Specifically, we reviewed 20 CPUs in five districts and found only one using the
most recent bad check list, dated May 2012. We also found 19 of the 20 CPUs either
did not have a list or had a list dated as far back as 10 fiscal years, to March 2002 (see
Table 1). Of the 20 CPUs reviewed, 13 accepted 33 checks that ultimately became bad
checks totaling $7,159 during the FY 2010 through March 2012 time period. In calendar
years (CY) 2010 and 2011, we determined that CPUs nationwide accepted a total of
3,415 bad checks totaling $,1,161,315, $760,764 of which has not been collected. 19
This uncollected amount represents 2,214 bad checks. See Appendix B for details on
monetary impact.



17
   Handbook F-101, Section 2-1.2.1b, page 5, May 2012.
18
   Post offices responsible for overseeing CPUs.
19
   This amount includes the $25 returned check fee, added to the value of each check, by either the Eagan ASC or
the collection agency when pursuing collection efforts.


                                                        6
Controls Over the Check Acceptance Process                                       FI-MA-12-016



                       Table 1: Age of Bad Check Lists at CPUs Reviewed

                                      Age by
                                    Fiscal Year                 Number of CPUs
                                      No list                             6
                                        10                                1
                                         3                                3
                                         2                                2
                                         1                                1
                                    Less than 1                           7
                          Source: Interviews conducted May 23-24, 2012.




                        See Table 2 for the complete list of CPUs reviewed and the
dates of the most recent bad check lists.




20
     Handbook F-101, Section 9-3.5.3, page 121, May 2012.


                                                            7
Controls Over the Check Acceptance Process                                         FI-MA-12-016



                        Table 2: Bad Check Lists Reviewed at CPUs

                                                            Current
                                                           Bad Check    Date or Year of
                                                              List       Most Recent
             District                       CPU            (May 2012)   Bad Check List




       Source: Interviews conducted May 23-24, 2012.




                                                       8
Controls Over the Check Acceptance Process                                                       FI-MA-12-016




Recommendations

We recommend the vice president, Channel Access:

1. Modify the Point-of-Service system to prompt users to enter:

       



       


2. Modify Postal Service Form 1412, Daily Financial Report,



                     .

3. Modify the Returned Check Management System
            
       



       


We recommend the vice president, Delivery and Post Office Operations:

4. Direct district management to conduct training or stand-up talks on the check
   acceptance process and entering checks into the Point-of-Service System for
   personnel.

5. Require host post offices to continuously provide the most recent bad check lists to
   contract postal units.

Management’s Comments

Management disagreed with recommendations 1 through 3 and agreed with
recommendations 4 and 5. Management noted that Postal Service controls over check
acceptance resulted in a percentage of returned checks that is lower than what is
expected by the retail industry. Further, they stated that a prior OIG report 21 concluded
that Postal Service’s check acceptance and bad check collection processes were seven
21
     Bad Check Prevention and Collection (Report Number FI-AR-12-002, dated January 10, 2012).


                                                         9
Controls Over the Check Acceptance Process                                    FI-MA-12-016



times more effective than industry average, and any recommendations that incur cost
should be closely evaluated in terms of expected benefits and return on investment.

Regarding recommendation 1, to modify the POS System to prompt users to enter the
check account number and customer name, management stated they will not implement
any new non-critical changes to the current POS software as it is scheduled to be
replaced in FY 2013. In addition, management stated that it was not cost beneficial to
have retail associates enter this information manually since: (1) the system obtains the
account information from the check's magnetic ink character recognition line
automatically and (2) would require additional keystrokes and time, which would impact
retail efficiency, transaction time, and potential hours.

Management did not agree with recommendation 2 to modify PS Form 1412 to include
information containing the number of bad checks attempted to be cashed that day,
account numbers, bank routing numbers, and check names. Management stated that it
replaced the manual process for reviewing bad check lists with an electronic process in
the POS System. In addition, the Postal Service Privacy Office opposed printing
personal information on the proposed report.

Management disagreed with recommendation 3 to modify the RCMS to allow for the
entry of the first and last name of the customer and the retail associate identification
number for purposes of detecting fraudulent activity, displaying bad check history, and
identifying which associates are consistently accepting bad checks. Management said
that entering the name of the customer would increase time and give false positives. In
addition, management stated associates' identification numbers are already available in
the Retail Data Mart.

Management agreed with recommendation 4 and plans to conduct training or stand-up
talks for employees on the check acceptance process and entering checks into the POS
System. These actions are scheduled for completion by September 30, 2012.

Management agreed with recommendation 5 to require host post offices to continuously
provide the most recent bad check lists to CPU. Corrective action is planned for
completion by September 30, 2012.

Subsequent to their response, the Postal Service notified us that they agreed with the
monetary impact.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management Comments

The OIG acknowledges management’s comments that the Postal Service has been
significantly better than industry averages when it comes to the percentage of bad
checks received. We also acknowledge that implementation of recommendations 1, 2,
and 3 could warrant additional costs and impact both efficiency and privacy. However,



                                             10
Controls Over the Check Acceptance Process                                        FI-MA-12-016



we maintain that additional controls included in the POS System (or its replacement)
and RCMS would further prevent and detect bad check acceptance and deter attempts
to defraud the Postal Service, potentially with little or no additional costs. For example, if
the system ensured data was complete at the time of the transaction (whether
personnel scanned or manually entered the information) and prevented a bad check
from being passed at the retail counter, the Postal Service could save identification and
collection costs that would have been incurred later in the process. Additionally, as
noted in the report, if RCMS prompted Postal Service personnel to search for entries on
customers’ names in addition to routing and account numbers, the Postal Service could
identify a larger universe of customers writing bad checks as part of their electronic bad
check list. This, too, could reduce the number of bad checks initially accepted and,
thereby, save identification and collection costs that would have been incurred later in
the process.

Regarding recommendation 1, although we agree modifications to the POS system
would result in additional, initial costs and could reduce efficiency, we maintain the
proposed modifications would potentially allow fewer bad checks to bypass the system.
We are not advocating manual entry of account numbers or customer name. Rather, we
believe a system edit could be implemented in POS that will only accept a transaction
when 10-digits are captured in the account number field. If the system did not obtain the
account information from the check's magnetic ink character recognition line
automatically, then a re-scan or manual entry would be required to ensure the complete
account number is captured in the POS system. Additionally, a widely available product
like optical character recognition software could be used to capture the customer name.
Since customer names are imprinted on checks (rather than written by the customer),
the read rate should be fairly high. Again, manual entry might be required if the software
does not capture the correct information. We believe the perceived increase in
inefficiencies would be offset by the decreased costs associated with no longer needing
to pursue collection of a bad check.

Regarding recommendation 2, we disagree and continue to maintain the proposed
modified PS Form 1412 would provide the reviewing supervisor with an up-to-date view
of potential fraudulent names associated with bad check information. The current
electronic process does not provide the supervisor with an overview of the number of
bad checks attempted to be cashed for a particular day along with their respective
account numbers, bank routing numbers, and customer names. Additionally, we
understand the Postal Service Privacy Office concerns regarding printing sensitive
information; however, the Postal Service currently forwards the same printed bad check
information to its CPUs that is electronically available in the POS system, and could be
incorporated on the PS Form 1412. 22

Regarding recommendation 3, we disagree and continue to maintain the proposed
modification in RCMS to allow for the entry of the first and last name of the customer
would increase the chance of assessing additional bad check history in order to better
detect and analyze potential fraudulent activity. Additionally, we maintain the second
22
     Handbook F-101, Section 9-3.5.3, page 121, May 2012.


                                                        11
Controls Over the Check Acceptance Process                                      FI-MA-12-016



proposed RCMS modification to enter the retail associate identification number would
better equip account specialists to identify retail associates who are consistently
accepting bad checks along with their location. We agree retail associate identification
numbers are readily available in the Retail Data Mart; however, specialists would have
to manually retrieve the information, taking additional time and effort instead of entering
the identification numbers printed on the readily available returned check copies.

Additionally, as included in our report, an inquiry of bad checks using a customer’s
name rather than just the routing and account numbers more than doubled the number
of prior bad checks related to the customer. As noted in our report, from October 2010
to April 2012, nearly $43 million in bad checks were accepted by the Postal Service.
Further, nearly $19 million remains uncollected, including nearly $16 million in checks
that were accepted in FYs 2010 and 2011. The OIG considers management’s
comments responsive to recommendations 4 and 5 in the report. For recommendations
1 through 3, we do not plan to pursue the issue at this time.

The OIG considers recommendation 5 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                             12
Controls Over the Check Acceptance Process                                                            FI-MA-12-016




                                 Appendix A: Additional Information

Background

Postal Service retail associates may accept personal, bank, government agency,
business, travelers, and American Express gift checks for customer transactions when
presented with proper photo identification. While paying by check is convenient for
some customers, there is a risk associated with check acceptance. To reduce the risk,
Accounting Services 23




                                                                            , POS will display a message
declining the check.

                                             In addition, the account on which the
check is drawn has nonsufficient funds available, resulting in a delay or loss of funds
transferred to Postal Service accounts. Furthermore, some customers attempt to
defraud the Postal Service by making purchases with fraudulent checks and counterfeit
bank account numbers.

Although current data suggests the number of checks continues to decline each year,
the Postal Service still accepted


                                                                     remains
uncollected. See Table 3 for an overview of the number and dollar amounts of bad
checks processed by the Postal Service each fiscal year.

     Table 3: Number and Dollar Amounts of Bad Checks Processed by Accounts
                               Reconciliation Branch
                                              Number of Bad               Total Amount of
                       Fiscal Year               Checks                     Bad Checks




                     Source: RCMS.

23
   Accounting Services manages accounting processes and procedures for the Postal Service.
24
   Effective March 7, 2009, management enhanced customer check acceptance functionality in the POS system to
include the bad check list file.
25
   During Q1, FY 2012, Information Technology merged the Finance Branch’s stand-alone RCMS into the Eagan
ASC’s web-based RCMS. The Finance Branch processes bad checks from lockbox customers while the Eagan ASC
processes bad checks from retail locations, such as post offices. As such, the data for FY 2012 includes bad checks
processed by both branches from October 2011 through April 2012.


                                                        13
Controls Over the Check Acceptance Process                                                             FI-MA-12-016




Banks attempt to deposit nonsufficient funds checks twice before sending bad check
images to Accounting Services, Eagan ASC, for processing. The Eagan ASC is
responsible for reviewing perceived fraudulent check activity from retail locations, such
as post offices, stations, and branches; and entering information from bad check images
into the RCMS database on a daily basis. They are also responsible for the collection
and resolution of all checks accepted at retail locations returned from Postal Service
bank accounts. Generally, the bad check process takes about 3 weeks from the time a
bad check is presented at a retail unit, unsuccessfully deposited by a bank, and sent to
the Eagan ASC for collection. 26

The Eagan ASC refers checks identified as fraudulent to the Inspection Service field
offices on a weekly basis. The Inspection Service then initiates investigations on those
frequently referred bad check customers. During FYs 2010 and 2011, the Inspection
Service opened a total of 66 cases and made 39 arrests pertaining to bad checks. The
OIG Office of Investigations handles referrals pertaining to suspicious activity involving
PRU personnel. During the same time, the OIG’s Office of Investigations opened one
case involving a Postal Service employee passing a bad check, which resulted in a
letter of removal.

Objective, Scope, and Methodology

Our objective was to determine the effectiveness of controls over the check acceptance
process. To accomplish our objective, we:

   Analyzed bad check data from RCMS to identify units and personnel with
    occurrences of bad check acceptance.

   Interviewed Postal Service personnel to gain an understanding of check acceptance,
    bad check processing procedures, and Lean Six Sigma initiatives.

   Contacted CPU personnel to determine whether bad check lists were being
    distributed to the units.

   Conducted visits to Eagan, MN, ASC to observe bad check processing and follow-up
    procedures to determine whether controls and monitoring are adequate. We also
    visited the Oakland, CA Post Office, Civic Center Station, to observe POS system
    check processing procedures.

We conducted this review from February through September 2012 in accordance with
the Council of the Inspectors General on Integrity and Efficiency Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on July 9, 2012, and included their comments where appropriate.

26
   The Eagan ASC is responsible for collecting nonsufficient funds checks of $5,000 or more, suspicious checks, and
checks returned for reasons other than nonsufficient funds. The Postal Service contracted with a collection agency to
handle nonsufficient funds checks under $5,000.


                                                         14
Controls Over the Check Acceptance Process                                        FI-MA-12-016




We assessed the reliability of RCMS and RDM data by judgmentally comparing system
data to source documentation. We also interviewed account specialists at the Eagan
ASC who were knowledgeable about the system processes and data. In addition, we
interviewed CPU personnel to gather information regarding their use of the bad check
list. We determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

Our Bad Check Prevention and Collection 27 report determined that the Postal Service’s
policies and procedures to prevent and collect bad checks were effective and efficient.
However, the audit found that there was additional opportunity to decrease bad check
costs by increasing the bad check service fee to the national retail median.

The OIG recommended that management increase the bad check service fee to the
national retail median of $30. Management agreed with the recommendation in the
report.




27
     Report Number FI-AR-12-002, dated January 10, 2012.


                                                       15
Controls Over the Check Acceptance Process                                                               FI-MA-12-016




                                      Appendix B: Monetary Impact

           Recommendation                        Impact Category                               Amount
                 5                         Unrecoverable Revenue Loss 28


The monetary impact calculation is based on the dollar value of     bad checks
accepted at CPUs nationwide, which were identified in CYs 2010 and 2011 and remain
uncollected. This amount includes the $25 returned check fee added to the value of
each check by either the Eagan ASC or the collection agency when pursuing collection
efforts. 29




28
   Amount the Postal Service is (or was) entitled to receive, but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed.
29
   Handbook F-101, Section 9-3.5.1.e, page 121, May 2012.


                                                          16
Controls Over the Check Acceptance Process                                                  FI-MA-12-016




                             Appendix C: Check Acceptance Data

Table 4 shows the number and total amount of returned checks accepted by each
district between FY 2010 through Q 2, FY 2012.

             Table 4: Number and Amount of Returned Checks Accepted
                            by District and Fiscal Year

                   FY 2010                   FY 2011              FY 2012 (Q1-Q2)             TOTAL


                                                                             Total
           Number of   Total Amount   Number of      Total     Number of   Amount of   Number of      Total
             Bad          of Bad        Bad        Amount of     Bad         Bad         Bad        Amount of
District    Checks        Checks       Checks     Bad Checks    Checks      Checks      Checks     Bad Checks
 Name      Accepted      Accepted     Accepted     Accepted    Accepted    Accepted    Accepted     Accepted




                                                   17
Controls Over the Check Acceptance Process                                                  FI-MA-12-016



                   FY 2010                   FY 2011              FY 2012 (Q1-Q2)             TOTAL


                                                                             Total
           Number of   Total Amount   Number of      Total     Number of   Amount of   Number of      Total
             Bad          of Bad        Bad        Amount of     Bad         Bad         Bad        Amount of
District    Checks        Checks       Checks     Bad Checks    Checks      Checks      Checks     Bad Checks
 Name      Accepted      Accepted     Accepted     Accepted    Accepted    Accepted    Accepted     Accepted
  Controls Over the Check Acceptance Process                                                          FI-MA-12-016



                        FY 2010                    FY 2011                FY 2012 (Q1-Q2)                TOTAL


                                                                                     Total
                Number of   Total Amount   Number of       Total      Number of    Amount of    Number of       Total
                  Bad          of Bad        Bad         Amount of      Bad          Bad          Bad         Amount of
   District      Checks        Checks       Checks      Bad Checks     Checks       Checks       Checks      Bad Checks
    Name        Accepted      Accepted     Accepted      Accepted     Accepted     Accepted     Accepted      Accepted




     

Source: RCMS.




  30
     The number and dollar amount of bad checks unaccounted for represent the difference identified when comparing
  the total number of bad checks accepted each fiscal year and the subtotals of the bad checks accepted within each
  district.


                                                          19
Controls Over the Check Acceptance Process                                                  FI-MA-12-016



We analyzed the POS Bad Check Override Report from October 2009 through
April 2012. Table 5 shows override transactions by district, number of units, and
supervisors.

     Table 5: Check Override Activity by District During FY 2010 – Q2, FY 2012

                                                                                    Number of Supervisors
                      Number of Bad    Total Amount of Bad   Number of Units with      Who Performed
   District Name     Check Overrides     Check Overrides     Bad Check Overrides         Overrides




                                                                                                       24




                                                 20
Controls Over the Check Acceptance Process                                                  FI-MA-12-016



                                                                                    Number of Supervisors
                      Number of Bad    Total Amount of Bad   Number of Units with      Who Performed
   District Name     Check Overrides     Check Overrides     Bad Check Overrides         Overrides




                                                 21
 Controls Over the Check Acceptance Process                                                  FI-MA-12-016



                                                                                     Number of Supervisors
                       Number of Bad    Total Amount of Bad   Number of Units with      Who Performed
     District Name    Check Overrides     Check Overrides     Bad Check Overrides         Overrides




Source: RCMS.




                                                  22
Controls Over the Check Acceptance Process                    FI-MA-12-016



                          Appendix D: Management’s Comments




                                             23
Controls Over the Check Acceptance Process        FI-MA-12-016




                                             24
Controls Over the Check Acceptance Process        FI-MA-12-016




                                             25
Controls Over the Check Acceptance Process        FI-MA-12-016




                                             26
